APPENDIX

TABLE OF APPENDICES

Opinions and Judgments
Supreme Court of California
Order Denying Review filed February 19, 2019

App-1

Court of Appeal of the State of California
Opinion dated November 12, 2019..........

.App-2

Superior Court of the County of Los Angeles
Judgment dated December 4, 2017................

,App-3

Court of Appeal of the State of California
Opinion dated June 27, 2016...................

,App-4

Exhibits of Party Admissions
Penny Mac letter dated March 17, 2011.

,App-5

Penny Mac letter dated April 5, 2011....

App-6

PennyMac letter dated August 28, 2012

App-7

3^

App-1
SUPREME COURT OF CALIFORNIA
NO. S259570
SHERRY HERNANDEZ
Plaintiff - Appellant
v.
PNMAC MORTGAGE OPPORTUNITY INVESTORS,
LLC, et all
Defendants - Appellees
Petition for Writ of Certiorari from the California Court of
Appeal, Second District, Division Five, No. B287048
Opinion denying review entered February 19, 2020

34-

App-2
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, SECOND APPELLATE DISTRICT,
DIVISION FIVE
SHERRY HERNANDEZ
Plaintiff - Appellant

Case No. B287048

(Los Angeles County
v.
Super. Ct. No.
YC068794)
PNMAC MORTGAGE OPPORTUNITY
INVESTORS, LLC, et al,
Defendants - Respondents
Opinion filed November 12, 2019
Remittitur dated February 24, 2020
APPEAL from a judgment of the Superior Court of Los
Angeles County, Ramona G. See, Judge. Affirmed.
Hernandez Law Group, Rhonda Hernandez; Imperiale Law
Group, James T. Imperiale, for Plaintiff and Appellant.
Blank Rome, Cheryl S. Chang and Jessica A. McElroy, for
Defendants and Respondents.

Plaintiff and appellant Sherry Hernandez (plaintiff) sued
the parties who foreclosed on her residence, including
defendants and respondents PNMAC Opportunity Fund
Investors, LLC (PNMAC) and PennyMac Loan Services. In a
prior appeal, we held the trial court was right to sustain a

3/

demurrer to all of plaintiff’s causes of action as alleged in a
second amended complaint, but wrong not to give plaintiff
further leave to amend her wrongful foreclosure claim so as
to try to state a valid cause of action following the change in
law worked by Yvanova v. New Century Mortgage
Corporation (2016) 62 Cal.4th 919 (Yvanova). Plaintiff later
filed a third amended complaint presenting a restyled
wrongful foreclosure claim and, at the same time, proposed
to add various other causes of action and additional
defendants. Defendants again demurred, and the trial court
found plaintiff still had not sufficiently alleged a viable
wrongful foreclosure theory and could not allege additional
causes of action or add defendants when we remanded solely
to permit amendment of the wrongful foreclosure claim. We
now consider whether the court was correct to sustain
defendants’ most recent demurrer without further leave to
amend.
I. BACKGROUND
A. The Pertinent Transactions, As Described by the
Operative Complaint and Shown in Documents
Subject to Judicial Notice
Plaintiff’s husband, Alfredo Hernandez, borrowed
$752,500 from Your-Best-Rate Financial, LLC (Your-BestRate), evidenced by his promissory note in that amount (the
Note). The Note was secured by a deed of trust on the
family’s Rancho Palos Verdes home (the Property). Plaintiff,
her husband, and her daughter Elizabeth all signed the deed
of trust, which includes a provision authorizing sale of the
Property in the event of a default on the payments due under
the Note. The trust deed also includes a provision by which
the deed’s signatories acknowledge Mortgage Electronic

K

Registration Systems, Inc.1 (MERS)—the named beneficiary
under the trust deed and the holder of legal title to the
interests granted by the deed’s signatories—had the right, as
nominee for the lender and its successors and assigns, to
exercise any or all of the interests granted by the signatories,
including “the right to foreclose and sell the Property.”
The original lender, Your-Best-Rate, assigned the Note to
CitiMortgage, Inc. on the same day it was executed via a first
allonge to the Note. A second allonge to the Note indicates
“CitiMortgage, Inc. [b]y and through its Attorney in Fact
PNMAC Capital Management LLC” endorsed the note in
blank, which would operate to assign its interest to whoever
actually holds the Note.
On January 18, 2012, PennyMac Loan Services recorded an
assignment of the deed of trust on the Property (the Assignment).

By its terms, the Assignment indicates MERS assigned
“all beneficial interest” under the trust deed to PNMAC. On
its face, the Assignment states it was executed on January 5,
2012, by Todd Graves (Graves), acting in his capacity as an
assistant secretary of MERS. The Assignment also bears an
attestation by Corina Castillo, a Los Angeles County Notary
Public, that Graves personally appeared before her and
proved by satisfactory evidence that he executed the
Assignment in his “authorized capacity.”

1“MERS was formed by a consortium of residential mortgage lenders and
investors to streamline the transfer of mortgage loans and thereby
facilitate their securitization. A member lender may name MERS as
mortgagee on a loan the member originates or owns; MERS acts solely as
the lender’s ‘nominee,’ having legal title but no beneficial interest in the
loan. When a loan is assigned to another MERS member, MERS can
execute the transfer by amending its electronic database. When the loan
is assigned to a nonmember, MERS executes the assignment and ends its
involvement.” (Yvanova, supra, 62 Cal.4th at p. 931, fn. 7.)

37

The same day the Assignment was recorded, MTC
Financial, Inc. dba Trustee Corps (Trustee Corps) recorded a
Notice of Default and Election to Sell, stating the Note was in
default in the amount of $55,059.76. Trustee Corps served
and recorded a notice of trustee’s sale on July 10, 2012, and
on April 16, 2013, Trustee Corps conducted the foreclosure
sale of the Property. PNMAC purchased the Property for
$695,000, and a Trustee’s Deed Upon Sale to that effect was
subsequently recorded in the County Recorder’s Office.
B. Plaintiff’s Lawsuit, the Successful Demurrer, and
Our Prior Decision Reversing and Remanding
After the completed foreclosure sale, plaintiff sued
PNMAC in Los Angeles Superior Court. Not long thereafter,
she filed a first amended complaint, and then a second
amended complaint. The second amended complaint asserted
four causes of action: (1) “Violation of California
Commercial Code-Fraudulent Assignment,” (2) Quiet Title,
(3) Wrongful Foreclosure, and (4) “cancellation of
instrument,” specifically attacking the deed of trust, notice of
default, and notice of trustee’s sale. The gist of the pleading
was that defendants had no interest in the trust deed, and thus
no right to foreclose on the Property, because MERS never
validly assigned the trust deed to PNMAC. Plaintiff
alleged no facts, however, that established whether she
believed the Assignment was void or merely voidable.
The trial court sustained PNMAC’s demurrer to the
second amended complaint without leave to amend. In an
opinion filed in December 2015, we affirmed. We rested our
holding largely on a conclusion that a foreclosure plaintiff
does not have standing to challenge an entity’s authority to
initiate foreclosure proceedings, but we noted this standing
issue was then pending before our Supreme Court in

JS

Yvanova. Plaintiff sought review in the Supreme Court on
that basis, and the Supreme Court issued an order remanding
the matter to us for reconsideration in light of its newly
issued Yvanova opinion, which holds “borrowers have
standing to challenge [deed of trust] assignments as void, but
not as voidable.” (Yvanova, supra, 62 Cal.4th at p. 939.)
We vacated our original December 2015 opinion and
issued a new opinion reversing the trial court’s judgment of
dismissal as to PNMAC. {Hernandez v. PNMAC Mortg.
Opportunity Fund Fnv’rs, LLC (June 27, 2016, No.
B258583) [nonpub. opn.].) We held plaintiff’s second
amended complaint did not then state a valid cause of action
as to any of the four claims it asserted, including the
wrongful foreclosure claim. We also adhered to the
prior conclusion, in our December 2015 opinion, that
PNMAC’s demurrer was properly sustained without leave to
amend as to plaintiff’s causes of action for violation of the
Commercial Code, quiet title, and cancellation of
instruments. But we held there was a reasonable probability
plaintiff could amend her wrongful foreclosure claim to state
a valid cause of action consistent with the parameters
established in Yvanova, and we “remandfed] the matter to the
trial court to give her that opportunity, which if again
contested via demurrer by PNMAC, the trial court will
decide on the record before it.” Specifically, we explained
plaintiff might be able to plead a valid wrongful foreclosure
theory because her briefs indicated “she intends to allege
PNMAC was not the true beneficiary because the Assignment
was absolutely void—not simply voidable,” which
conceivably could also excuse her from the general
requirement that a plaintiff seeking to invalidate a foreclosure

*1

sale must allege tender (i.e., actual or offered payment) of the
amount due and owing under a promissory note.2
C. The Operative Third Amended Complaint
Back in the trial court, plaintiff filed a third amended
complaint in December 2016, which is the operative pleading
for purposes of this appeal. The operative complaint alleges a
single “Cause of Action for Wrongful Foreclosure based on
Void Assignment.” The various paragraphs comprising this
cause of action read more like a memorandum of points and
authorities than a typical complaint, but as best we can
follow, the wrongful foreclosure cause of action alleges the
Assignment was “void ab initio” for four reasons.
First, the operative complaint alleges the Assignment is
void because the trust deed itself is “void ab initio.” Plaintiff
presents a convoluted theory for why the trust deed is
purportedly void that she does not reprise in her briefs
seeking reversal in this appeal. Second, the complaint alleges
the Assignment was executed at the request of the lender,
Your-Best-Rate, and Your-Best-Rate “could not have
exercised authority with respect to the Assignment inasmuch
as [Your-]Best-Rate was dissolved by its state of
incorporation” years before the Assignment was made. Third,
the complaint “challenges the capacity and authority in which
2 We elaborated: “fO]ur reading of the operative complaint along with the
additional facts plaintiff now represents she can plead establishes a
reasonable possibility plaintiff can go beyond mere allegations and
present a specific wrongful foreclosure theory on which she intends to
rely, namely, that the person who ostensibly executed the Assignment,
Graves, in fact had no authority to act on MERS’s behalf; or if he did, he
did not in fact execute the Assignment because the notaiy, Castillo, who
has since apparently been convicted (not just indicted) for misuse of
her notary seal falsely verified his signature; and that just months before
the Assignment was ostensibly executed there were competing claimants
on the beneficial interest in the Note.”

Todd Graves executed the assignment.” The sole basis of this
challenge, as alleged, is that “Todd Graves has executed
voluminous documents with numerous different titles on
behalf of multiple entities,” including PNMAC and MERS.
Fourth, and finally, the complaint alleges “[m]any of the
instruments Todd Graves executed, including the Assignment
of which [pjlaintiff complains, were notarized by the
notary . . . Corina Castillo,” who was under criminal
investigation and allegedly pled guilty to “a few felony
counts” of notary fraud in an unrelated state court case.
Plaintiff’s operative complaint also includes other
assertions and information (allegations would not be the right
word) apart from the Assignment-related averments. The
complaint asserts the trustee’s sale of the property was “void
ab initio” because the authority exercised by the trustee was
“derived from void instruments.” The complaint includes a
series of paragraphs with the goal of establishing “[p]laintiff
was ready and willing to establish a positive relationship with
the defendants.” The complaint “brings to the court’s
attention other acts of the [defendants, named and unnamed,
in furtherance of their pursuit to prevail in this matter.” And
in perhaps its oddest feature, the complaint itself states
plaintiff requires leave to amend it to “allege and
substantiate” a “litany of additional causes of action” and “to
identify by name several of the unnamed DOES in the
interest of justice.”
D. Subsequent Trial Court Proceedings and the
Ruling Sustaining a Demurrer Without Further Leave
to Amend
Not long after plaintiff filed the operative complaint,
plaintiff filed a motion for leave to amend the operative
complaint. Plaintiff asked to make certain minor revisions, to

add six new causes of action that had not been alleged in any
of her four prior complaints, and to name nine new
defendants in place of unspecified Does. Defendants opposed
giving plaintiff leave to further amend and the trial court
denied the motion, finding it moot because the “request for
amendment is not within the scope of the Court of Appeal’s]
ruling which allowed for amendment solely as to the cause of
action for Wrongful Foreclosure and solely against
[PNMAC].”3
The court ordered defendants to file a
responsive pleading to plaintiff’s operative complaint within
30 days.
Defendants4 demurred to the operative complaint on the
grounds that plaintiff’s wrongful foreclosure claim, even as
again amended, did not “state facts sufficient to constitute a
cause of action, and is uncertain, unintelligible, and
ambiguous.” Defendants argued the wrongful foreclosure
cause of action failed because plaintiff had not alleged she
tendered the amount due under the Note, nor had she
sufficiently alleged a valid basis to excuse her from tendering
that amount. Defendants further argued (1) plaintiff had not
alleged sufficient facts to support her “bald allegation” that
the Assignment is void because Graves lacked capacity or
authority to sign the document, and (2) plaintiffs allegations
concerning asserted impropriety by notary Castillo did not
establish any link to what occurred in her case. Defendants
additionally asked the court to deny any request for
further leave to amend, explaining “[plaintiff’s theory of the
case—that the individual [i.e., Graves] who signed the

3 The court also struck the lines of text in the operative complaint that
requested leave to amend.
4 Plaintiff’s operative complaint named “PennyMac Loan Services, LLC”
as one of the named defendants.

4^

[Assignment . . . signed documents on behalf of other
entities— does not support any basis for liability against
[PNMAC].”
The trial court sustained defendants’ demurrer without
leave to amend. The court believed our opinion remanding
the matter “provided clear guidance regarding what facts
were required to state a claim for wrongful foreclosure,”
namely, factual allegations that Graves had no authority to act
on MERS’s behalf or, even if he did, he did not actually sign
the Assignment and Castillo falsely notarized a signature as
his. The trial court concluded the operative complaint failed
to plead such facts, explaining the operative complaint’s
allegation that Graves had executed documents for other
entities did not establish he had no authority to execute the
Assignment for MERS and there was no allegation in the
operative complaint that Castillo falsely verified Graves’s
signature on the Assignment. The trial court further found the
operative complaint continued to seek to unwind the
foreclosure sale of the Property, which meant “the tender
rule” was applicable and plaintiff had not sufficiently
alleged a void assignment that would excuse her from
tendering the amount due under the Note.
The trial court thereafter entered a judgment of
dismissal, from which plaintiff now appeals.
II. DISCUSSION
We confront two questions in this appeal, one old and
one new. First, the old: we decide, now for the third time,
whether plaintiff has alleged facts to state a proper wrongful
foreclosure claim and, if not, whether she has identified facts
that she should be given further leave to allege. The short
answer is a double no—the operative complaint presents no
valid theory that the Assignment is void and plaintiff has not

4*

presented sufficient justification for getting a fifth bite at the
apple. Second, the new: plaintiff argues she should be
permitted to assert seven heretofore unpled causes of action
and to name two additional defendants. It is too late for all
that. We previously affirmed the sustained demurrer as to all
causes of action and remanded solely to give plaintiff an
opportunity to amend the wrongful foreclosure cause of
action in light of Yvanova. Plaintiff had that opportunity, it
was unsuccessful, and she is entitled to nothing more now.
A. Standard ofReview
“For purposes of reviewing a demurrer, we accept the
truth of material facts properly pleaded in the operative
complaint, but not contentions, deductions, or conclusions of
fact or law. We may also consider matters subject to judicial
notice. (Evans v. City of Berkeley (2006) 38 Cal. 4th 1, 6[ ].)
To determine whether the trial court should, in sustaining the
demurrer, have granted plaintiff leave to amend, we consider
whether on the pleaded and noticeable facts there is a
reasonable possibility of an amendment that would cure the
complaint’s legal defect or defects. (Schifando v. City of Los
Angeles (2003) 31 Cal.4th 1074, 1081[ J.f (Yvanova, supra,
62 Cal.4th at p. 924, fn. omitted.) Sustaining a demurrer
without leave to amend is proper “if either (a) the facts and
the nature of the claims are clear and no liability exists, or (b)
it is probable from the nature of the defects and previous
unsuccessful attempts to plead that the plaintiff cannot
state a claim.” (Cantu v. Resolution Tr. Corp. (1992) 4
Cal.App.4th 857, 889-890 (Cantu).)
B. Plaintiff Has Not Stated a Cause ofAction for
Wrongful Foreclosure, nor Has She Shown She Can
Fix the Problem

A claim for wrongful foreclosure lies where “(1) the
trustee or mortgagee caused an illegal, fraudulent, or willfully
oppressive sale of real property pursuant to a power of sale in
a mortgage or deed of trust; (2) the party attacking the
sale . . . was prejudiced or harmed; and (3) in cases where the
trustor or mortgagor challenges the sale, the trustor or
mortgagor tendered the amount of the secured indebtedness
or was excused from tendering.” (Lona v. Citibank, N.A.
(2011) 202 Cal.App.4th 89,104.)
In this case, the first and third of these elements
coincide: plaintiff’s wrongful foreclosure claim is predicated
on the theory that the foreclosure was illegal because the
Assignment is void (meaning PNMAC lacked valid authority
to institute foreclosure proceedings), and prior cases have
held a foreclosure arising from a void instrument provides an
excuse for the ordinarily applicable rule that a wrongful
foreclosure plaintiff must allege tender, i.e., that she has paid
or offered to pay the amount in arrears (see, e.g., Glaski v.
Bank ofAmerica (2013) 218 Cal.App.4th 1079, 1100
(Glaski)', see also Yvanova, supra, 62 Cal.4th at p. 929, fn. 4).
So the key issue is whether the operative complaint alleges
facts that, if true, would establish the Assignment is void (not
merely voidable). It does not—as to any of the alleged
theories the operative complaint proffers.
The operative complaint alleges the Assignment is void
because it was “purportedly” executed at the request of YourBest-Rate even though the company had been “dissolved by
its state of incorporation in 2010.” But the Assignment itself,
which the trial court judicially noticed and which we do as
well, does not indicate it was executed at the behest of YourBest-Rate. Rather, it states the “undersigned” grants, assigns,
and transfers the loan to PNMAC—where the “undersigned”
is MERS, “acting solely as nominee for Lender, [Your-Best-

Rate], its successors and/or assigns.” By failing to
acknowledge or grapple with the reference to the successors
or assigns of Your-Best-Rate, the allegation in the complaint
does not suffice to establish the trust deed was transferred
without authority—especially when, as we have already
explained, Your-Best-Rate assigned the Note to
CitiMortgage, Inc. on the same day it was executed via a first
allonge to the Note and the trust deed necessarily
accompanied that assignment. (See, e.g., Yvanova, supra, 62
Cal.4th at p. 927 [“The deed of trust ... is inseparable from
the note it secures, and follows it even without a separate
assignment”].) Furthermore, even if plaintiff were right that
Your-Best-Rate retained the Note and trust deed when YourBest-Rate was allegedly dissolved, there is persuasive
authority that MERS still would have the power to execute
the Assignment in that circumstance. (See, e.g., L’Amoreaux
v. Wells Fargo Bank, N.A. (5th Cir. 2014) 755 F.3d 748, 750
[“Although [the lender] had ceased to exist at the time of the
assignment, the Deed of Trust explicitly contemplates
MERS’s continuing to act as nominee for [the lender’s]
‘successors and assigns’”]; Ghuman v. Wells Fargo
Bank, N.A. (E.D. Cal. 2013) 989 F.Supp.2d 994, 1002-1003.)
This alleged theory of voidness therefore fails.
Next, the operative complaint alleges the Assignment is
void on its face because plaintiff “challenges the capacity and
authority in which ... Graves executed” it. This is merely a
contention or conclusory allegation of law entitled to no
weight in a demurrer analysis. (Yvanova, supra, 62 Cal.4th at
p. 924.) What plaintiff needs are well-pleaded facts, and the
operative complaint offers only this: “Graves has executed
voluminous documents with numerous different titles on
behalf of multiple entities, including but not limited to”

4k

documents as attomey-infact for PNMAC and as Assistant
Secretary of MERS.
That is not enough. The allegation that Graves executed
other documents in other capacities (largely similar to the
capacity in which he executed the Assignment here) does not
establish a factual predicate that he had no authority to
execute the Assignment. No facts are alleged that would
suggest the capacities in which Graves signed the other
documents are somehow inconsistent with his authority to
simultaneously act for MERS in connection with the
Assignment. (See generally Cervantes v. Countrywide Home
Loans, Inc. (9th Cir. 2011) 656 F.3d 1034, 1040 [“MERS
relies on its members to have someone on their own staff
become a MERS officer with the authority to sign documents
on behalf of MERS. [Citation.] As a result, most of the
actions taken in MERS’s own name are carried out by staff
at the companies that sell and buy the beneficial interest in
the loans”].) Moreover, of all the other documents bearing
Graves’s signature that plaintiff attaches to her complaint,
none were executed on the same day as the Assignment.
There is thus not even a factual predicate to conclude he
acted in more than one capacity simultaneously.
Plaintiff’s opening brief suggests she can cure her
deficient factual allegations concerning Graves by adding a
single sentence to the complaint: ‘“Graves was not authorized
to execute the Assignment, PennyMac’s permission
notwithstanding; PennyMac did not have authority to so
direct.’” This still does not fix the problem, for two reasons.
First, this proposed addition is still just a contention or
conclusion of law. (See, e.g., Glaski, supra, 218 Cal.App.4th
at p. 1094; Zumbrun v. University of Southern California
(1972) 25 Cal.App.3d 1, 8 [“General and indefinite

assertions of liability are not sufficient compliance with the
rules of pleading .... Facts, not conclusions, must be
pleaded”].) Second, the proposed addition—in tension with
the existing allegations—concedes Graves did have authority
to execute the Assignment but for some unspecified reason
the authority conferred was insufficient. Still missing are
alleged facts as to why it was insufficient, and plaintiff has
recited no facts she would add to the complaint if given
further leave to amend that would remedy the deficiency.
{Cantu, supra, 4 Cal.App.4th at p.890 [to meet the burden to
show a possibility of amendment “a plaintiff must submit a
proposed amended complaint or, on appeal, enumerate the
facts and demonstrate how those facts establish a cause of
action”].)
Finally, the operative complaint alleges the Assignment
is void because “[m]any of the instruments . . . Graves
executed, including the Assignment of which [p]laintiff
complains, were notarized by the notary now familiar in this
case . . . Castillo,” who was under criminal investigation at
the time and, as alleged, later pled guilty in 2014 to
fraudulently notarizing documents. Even assumed true, these
allegations have no bearing on what happened here. Plaintiff
still has not alleged facts that would suggest Castillo’s
criminal conduct extended to this case such that she falsely
verified a document Graves did not in fact sign. Plaintiff
makes no showing in her briefs on appeal that she could
allege facts to remedy the deficiency—the most she is able to
muster is a passing, conclusory assertion that the Assignment
“was acknowledged by a notary public who knew or should
have known it was false; they [i.e., Graves and Castillo] had
been coworkers for some time.” Again, that knew-or-shouldhave-known assertion is not a well-pleaded factual allegation
on which liability may be had.

4Q

C. The Trial Court Correctly Denied Further Leave to
Amend to Add New Causes ofAction and Defendants,
Which Would Be Beyond the Scope of Our Remand
Only a sliver of plaintiff’s case remained after our last
opinion remanding this case to the trial court. We held the
trial court correctly sustained demurrers to all of plaintiff’s
causes of action and we affirmed denial of leave to amend as
to all but the wrongful foreclosure cause of action. We
remanded the case to the trial court solely because we
believed there was a reasonable possibility plaintiff could
plead a valid cause of action for wrongful foreclosure against
PNMAC and we concluded she “should have an additional
opportunity to amend her complaint to state a valid wrongful
foreclosure claim.”
Plaintiff got just what we ordered, but as we have just
explained, she failed in her fourth attempt to state a valid
cause of action. In the trial court, she asked for yet another
opportunity to amend to add never-before-asserted causes of
action and new defendants, which the trial court denied. She
now makes the same request on appeal. Specifically, she
argues she should be given leave to assert causes of action for
(1) promissory estoppel, (2) a violation of the Unfair
Competition Law (Bus. & Prof. Code, § 17200), (3)
intentional interference with prospective economic
advantage, (4 and 5) negligent “and/or” intentional infliction
of emotional distress, (6) “fraudulent deceit,” (7) “vicarious
responsibility of the willful torts committed by Graves and
Castillo,” and (8) “violating the statute governing out
of state affidavits” (Civ. Code, § 2015.5). She also proposes
to add CitiMortgage, Inc. and MERS in place of Doe
defendants, claiming she was not previously aware of facts
giving rise to a cause of action against them.

44

We will not order granting of leave to amend the
operative complaint in any respect. Four times plaintiff failed
to allege a valid cause of action, and these repeated failures
are reason to conclude the trial court did not err in denying
further leave to amend. (Ruinello v. Murray (1951) 36 Cal.2d
687, 690 [“Although the deficiencies in plaintiff’s complaints
were raised in defendant’s demurrers, after three attempts he
has not overcome them. The trial court could reasonably
conclude that he was unable to do so, and accordingly, it did
not abuse its discretion in sustaining the demurrer to the third
amended complaint without leave to amend”]; see also
Johnson v. Ehrgott (1934) 1 Cal.2d 136, 138 [“[TJhere must
be a limit to the number of amended complaints”]; Titus v.
Canyon Lake Property Owners Assn. (2004) 118 Cal. App.4th
906, 918; Cantu, supra, 4 Cal.App.4th at p. 890 [“A trial
court does not abuse its discretion when it sustains a
demurrer without leave to amend if... it is probable from the
nature of the defects and previous unsuccessful attempts to
plead that the plaintiff cannot state a claim”]; Krawitz v.
Rusch (1989) 209 Cal.App.3d 957, 967.)
Just as important, all of plaintiff’s proposed amendments
are beyond the scope of our remand order, which was limited
to giving plaintiff a further chance to amend her wrongful
foreclosure claim in light of Yvanova. (Ayyad v. Sprint
Spectrum, L.P. (2012) 210 Cal.App.4th 851, 860 [“when an
appellate court remands a matter with directions governing
the proceedings on remand, ‘those directions are binding on
the trial court and must be followed. Any material variance
from the directions is unauthorized and void”].) The trial
court correctly rejected—and we reject—plaintiff’s proposal
to essentially start this litigation again from scratch with an
entirely new complaint and a new set of defendants. Plaintiff

53

has been given well more than a fair opportunity to correct
any defect and it is time this lawsuit comes to an end.
DISPOSITION
The judgment is affirmed. Defendants shall recover their
costs on appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
BAKER, J.
We concur:
RUBIN, P. J.
MOOR, J.

j?

App.-3
SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF LOS ANGELES, SOUTHWEST DISTRICT
SHERRY HERNANDEZ
Plaintiff

Case No. YC068794
Assigned for all
purposes to Honorable
Ramona G. See, Dept. M

v.

PNMAC MORTGAGE
OPPORTUNITY
FUND INVESTORS, LLC,
AKA PNMAC MORTGAGE
OPPORTUNITY FUND
INVESTORS, LP; PENNYMAC
LOAN SERVICES, LLC, and
Does 1-20, inclusive,
Defendants

JUDGMENT OF
DISMISSAL WITH
PREJUDICE

Entered December 4, 20175
TO ALL PARTIES AND TO THEIR RESPECTIVE
ATTORNEYS OF RECORD:
PLEASE TAKE NOTICE that on October 23, 2017, the
Honorable Ramona G. See of Department M of the above-

5 The Original Judgment entered December 4, 2017 was a judgment of
dismissal without prejudice. On January 14, 2018 an order nun pro tunc
was entered to correct the original judgment to a dismissal with prejudice.
This rendition is from the Original judgment of December 4, 2017
reflecting the correction.

entitled Court, located at 825 Maple Ave., Torrance, CA
90803, issued a minute order sustaining the demurrer
(“Demurrer”) filed by defendants PNMAC Mortgage
Opportunity Fund Investors, LLC, erroneously sued as
“PNMAC Opportunity Fund Investors, LP” (“PNMAC”) and
PennyMac Loan Services, LLC (PennyMac Loan,”
collectively with PNMAC “PennyMac”) without leave to
amend as to Plaintiff Sherry Hernandez’s (“Plaintiff’)
remaining cause of action for wrongful foreclosure n her
Third Amended Complaint (“TAC”).
Accordingly, IT IS HEREBY ORDERED,
ADJUDGED AND DECREED that:
1. PennyMac’s Demurrer to the TAC is SUSTAINED in
its entirety and against Plaintiff, dismissing the action against
PennyMac with prejudice,
2. Judgment of dismissal is entered in favor of
PennyMac and against Plaintiff, dismissing the action against
PennyMac with prejudice; and
3. Plaintiff is to recover nothing from PennyMac.
JUDGMENT IS HEREBY ENTERED in favor of
PennyMac, dismissing it from this action with prejudice.
IT IS SOR ORDERED.
DATED: December 4, 2017
/s/ Ramona See
Judge of the Superior Court

f3

App-4
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, SECOND APPELLATE DISTRICT,
DIVISION FIVE
SHERRY HERNANDEZ
Plaintiff and Appellant

Case No. B258583

(Los Angeles County
Super. Ct. No.
v.
YC068794)
PNMAC MORTGAGE OPPORTUNITY
INVESTORS, LLC, et al,
Defendants and Respondents
Opinion filed June 27, 2016
APPEAL from a judgment of the Superior Court of Los
Angeles County, Ramona G. See, Judge. Affirmed in part,
reversed in part, and remanded.
Sherry Hernandez, in pro. per.; Law Office of David W. Seal
and David W. Seal for Plaintiff and Appellant.
Blank Rome, Todd A. Boock, Shawnda M. Grady, Jessica A.
McElroy, and Cheryl S. Chang, for Defendant and
Respondent PNMAC Mortgage Opportunity Fund Investors,
LLC.
Burke, Williams & Sorensen, Richard J. Reynolds and Joseph
P. Buchman, for Defendant and Respondent MTC Financial,
Inc. dba Trustee Corps.

Plaintiff Sherry Hernandez (plaintiff) sued the parties
responsible for foreclosing on her residence. She alleged
there were defects in the assignment of the deed of trust on
the property such that the entity that initiated the foreclosure
sale did so without proper authority. The trial court sustained
demurrers to plaintiff’s complaint and entered a judgment of
dismissal. We issued an opinion affirming the judgment,
which noted that our resolution of the appeal involved an
issue that was then pending before our Supreme Court:
whether a borrower has standing to challenge an allegedly
defective assignment of a trust deed by way of a cause of
action for wrongful foreclosure.
Several months later, the Supreme Court issued its
decision in Yvanova v. New Century Mortgage Corporation
(2016) 62 Cal.4th 919 (Yvanova) and held—contrary to our
earlier resolution of the issue, and disapproving three Court
of Appeal decisions on which we relied—a borrower does
have standing to challenge assignments that are allegedly
void (but not merely voidable). The Supreme Court granted
review of our prior decision and remanded the case to us with
directions to vacate our opinion and reconsider the matter in
light of Yvanova. We do so now, concluding plaintiff should
have an additional opportunity to amend her complaint to
state a valid wrongful foreclosure
claim, having never had the chance to do so consistent with
the principles our Supreme Court has now identified in
Yvanova.
I. BACKGROUND
Plaintiff’s husband, Alfredo Hernandez, borrowed
$752,500 from Your-Best-Rate Financial, LLC, evidenced by
his promissory note in that amount (the Note). The Note

J .)

was secured by a deed of trust on the family’s Rancho Palos
Verdes home (the Property). The express terms of the trust
deed defined the “borrower” to be “Alfredo Hernandez and
[plaintiff], husband and wife and Elizabeth Hernandez, a
single woman.” The deed of trust defined the term “Note” to
mean “the promissory note signed by Borrower,” i.e., the
$752,500 note signed on January 18, 2008. Plaintiff, her
husband, and her daughter Elizabeth all signed the deed of
trust, which included a provision authorizing sale of the
Property in the event of a default on the payments due under
the Note.
The original lender, Your-Best-Rate Financial, LLC,
assigned the Note to CitiMortgage, Inc. on the same day it
was executed via a first allonge to the Note. A copy of the
Note included in the appellate record, which we will later
describe in more detail, also includes a second attached
allonge that indicates “CitiMortgage, Inc. [b]y and through its
Attorney in Fact PNMAC Capital Management LLC”
endorsed the note in blank, which would operate to assign its
interest to whoever holds the Note.
On January 18, 2012, PennyMac Loan Services recorded
an assignment of the deed of trust on the Property (the
Assignment). By its terms, the Assignment indicates
Mortgage Electronic Registration Systems, Inc. (MERS),6 the
nominee “for Lender and Lender’s successors and assigns”
under the deed of trust, assigned “all beneficial
MERS was formed by a consortium of residential mortgage lenders
and investors to streamline the transfer of mortgage loans and thereby
facilitate their securitization. A member lender may name MERS as
mortgagee on a loan the member originates or owns; MERS acts solely as
the lender’s ‘nominee,’ having legal title but no beneficial interest in
the loan. When a loan is assigned to another MERS member, MERS can
execute the transfer by amending its electronic database. When the loan is
assigned to a nonmember, MERS executes the assignment and ends its
involvement.” (Yvanova, supra, 62 Cal.4th at p. 931, fn. 7.)
6 “

r*

interest” under the trust deed to PNMAC Opportunity Fund
Investors, LLC (PNMAC). On its face, the Assignment
indicates it was executed on January 5, 2012, by Todd
Graves (Graves), acting in his capacity as an assistant
secretary of MERS. The Assignment also bears an attestation
by Corina Castillo, a Los Angeles County Notary Public, that
Graves personally appeared before her and proved by
satisfactory evidence that he executed the Assignment.
The same day the Assignment was recorded, MTC Financial,
Inc. dba Trustee Corps (Trustee Corps)7 recorded a Notice of
Default and Election to Sell, stating the Note was in default
in the amount of $55,059.76. Trustee Corps served and
recorded a notice of trustee’s sale on July 10, 2012, which
scheduled the foreclosure sale to take place on August 6,
2012.
The sale was postponed when an automatic stay took
effect upon the filing of a bankruptcy petition by Elizabeth
Hernandez, plaintiff’s co-trustor under the deed of trust.
During the trial court proceedings in this case, both PNMAC
and Trustee Corps asked the court to take judicial notice of
certain documents filed during the bankruptcy proceedings.
Among the documents was the bankruptcy court’s tentative
ruling on PNMAC’s motion for relief from the automatic
bankruptcy stay. In its tentative ruling, the bankruptcy court
questioned PNMAC’s interest in the Note and gave the
parties additional time to provide evidence that PNMAC was
entitled to enforce the terms of the Note. Also among the
documents was a March 13, 2013, supplemental declaration
from Rita Garcia, a Bankruptcy Manager for PNMAC’s
authorized agent. The declaration attached a copy of the Note
with the second allonge purporting to show the Note had
7 Trustee Corps was named the substitute trustee on February 14, 2012,
and the Substitution of Trustee was recorded on July 10, 2012.

n

been endorsed in blank by CitiMortgage. (See, ante, at p. 3.)
The Garcia declaration asserted “[PNMAC] has possession
and control of the original Note with attached Allonges. As a
result, [PNMAC] is the real party in interest.”
Once PNMAC submitted the Garcia declaration with the
Note and two attached allonges, the bankruptcy court ruled
PNMAC had standing to seek relief from the automatic stay.
Specifically, the bankruptcy court held PNMAC’s submission
of the Note, trust deed, and the Assignment was sufficient to
establish it had “a colorable claim” in the Property.8 The
Bankruptcy Court accordingly lifted the automatic stay on
April 15,2013.
On April 16, 2013, Trustee Corps conducted the
foreclosure sale of the Property. PNMAC purchased the
Property for $695,000, and a Trustee’s Deed Upon Sale to
that effect was subsequently recorded in the County
Recorder’s Office.
In the meantime, plaintiff had filed a lawsuit against
defendants PNMAC and Trustee Corps in Los Angeles
Superior Court. She filed a first amended complaint after
the foreclosure sale, and later a second amended complaint
(the operative complaint) on December 2, 2013. The
operative complaint asserts four causes of action: (1)
“Violation of California Commercial Code-Fraudulent
Assignment,” (2) Quiet Title, (3) Wrongful Foreclosure, and
(4) “cancellation of instrument,” specifically, the deed of
trust, notice of default, and notice of trustee’s sale.

8 The bankruptcy court explained: “Movant also attachefd] a copy of the
Note with allonges to the Supplemental Declaration. One of the allonges .
.. was not [previously] submitted with the Motion, and appears to be an
endorsement in blank by CitiMortgage, Inc. (‘Citimortgage’).”

The overall gist of the operative complaint is fairly
summed up by a sentence in one of its general allegations:
“This action arises out of the wrongful conduct of the
defendants as concerns a fraudulent assignment of deed of
trust and a wrongful foreclosure on the . . .
Property.” (Operative Complaint f 7.) The theory of the
operative complaint, as taken from the general allegations
and portions of the allegations set forth in connection with
the designated causes of action, is that PNMAC had no
interest in the trust deed, and thus no right to foreclose on the
Property, because MERS never in fact assigned the trust deed
to PNMAC. Instead, plaintiff alleges Graves (whose
signature ostensibly appears on the Assignment) “is not, nor
has he ever been” a representative of MERS. (Operative
Complaint ^ 25.) In the same vein, plaintiff further alleges the
notary that verified Graves signed the Assignment “is or was
an employee of one or more of [defendants]” and that she
“has been indicted and is currently being prosecuted in Los
Angeles California for criminal misuse of her notary
seal.” (Operative Complaint ^ 25, 39.) Plaintiff further
alleges, on information and belief, that defendants have no
beneficial interest in the Note, and that the “Note was never
assigned, sold, transferred or otherwise conveyed to
Defendants.” (Operative Complaint^ 13, 15.)
Significantly, the Operative Complaint contains
somewhat contradictory allegations concerning the validity of
the trust deed and the notice documents associated with the
foreclosure process. In the portion of her complaint
pertaining to the cause of action for cancellation of
instruments, plaintiff requests entry of judgment “declaring
the Assignment of Deed of Trust, Notice of Default and
Election to Sell and Notice of Trustee Sale, to be void ab
initio.” (Operative Complaint TJ 55.) Just six paragraphs later,

jTf

however, plaintiff states she “is the person against whom the
instruments are void or voidable,” and she is therefore
entitled to relief. (Operative Complaint 61 [emphasis
added].) As to her cause of action for wrongful foreclosure,
plaintiff does allege “[t]here has been no valid assignment of
any deed of trust” (Operative Complaint 39), but she
makes no assertion as to whether the Assignment was void,
or merely voidable. Rather, she states only that she seeks
money damages and an order declaring the deed recorded
upon completion of the foreclosure sale void. (Operative
Complaint || 47, 48.)
As they had in response to each of her two prior
complaints, PNMAC and Trustee Corps demurred to the
operative complaint. They contended all of plaintiff’s causes
of action failed because she had not unconditionally tendered
the amounts due under the Note, and because the
comprehensive statutory framework for nonjudicial
foreclosures precluded her from stating a valid cause of
action. As to the wrongful foreclosure and Commercial Code
causes of action in particular, PNMAC asserted plaintiff
could not “seek judicial review as to whether the entity that
initiated the non-judicial foreclosure proceedings was
authorized to do so.” In a written ruling issued after the trial
court took the matter under submission, the court granted
defendants’ request for judicial notice of the trust deed,
Assignment, and other documents recorded in the Los
Angeles County Recorder’s Office, as well as the
documents concerning Elizabeth Hernandez’s bankruptcy
proceeding. The court sustained the demurrers filed by
defendants as to all four causes of action without leave
to amend. The trial court reasoned the complaint failed to
allege that plaintiff unconditionally tendered the amount of
indebtedness, or facts to establish that tender was not

required; the complaint failed to sufficiently allege that
plaintiff suffered prejudice by reason of the foreclosure; and
the allegation that the document assigning the trust deed
contained an improper signature was insufficient, absent
prejudice, to state a cause of action. The court elaborated on
the concept of prejudice, explaining plaintiff had not
asserted she or her husband attempted to pay the outstanding
debt and thus, in the court’s view, “the victim of the alleged
improper execution of the Deed of Trust and improper
notarization would be the lender which would have been
entitled to foreclose, not the Plaintiff.”
The trial court entered a judgment of dismissal, and
plaintiff timely appealed. In an opinion filed on December
18, 2015, we affirmed the judgment. We rested our
holding largely on our conclusion that a foreclosure plaintiff
does not have standing to challenge an entity’s authority to
initiate foreclosure proceedings based on an allegedly
defective assignment. We noted, however, that the standing
issue we resolved against plaintiff was pending before our
Supreme Court in Yvanova. Plaintiff sought review in
the Supreme Court on that basis, and the Supreme Court
issued an order remanding the matter to us for
reconsideration in light of its newly issued Yvanova opinion.
II. DISCUSSION
Plaintiff filed the operative complaint in December 2013,
long before our Supreme Court decided Yvanova. As it is
now pled, the complaint does not adequately state a valid
cause of action, and plaintiff in her supplemental briefing
after remand does not seriously contend otherwise. Rather,
the focus of the parties’ dispute is now whether there is a
reasonable possibility plaintiff could state a valid cause of
action for wrongful foreclosure post-Yvanova. In particular,

6(

plaintiff contends that although the operative complaint
“contained an erroneously labeled, and perhaps inartfiilly[ ]
drafted first cause of action,” the gist of the complaint was
that plaintiff “was arguing she had the right to question the
foreclosure due to a void assignment of the Deed of Trust.”
Plaintiff argues there is a reasonable probability she can plead
facts stating a valid claim for wrongful foreclosure consistent
with the parameters established in Yvanova and urges us to
remand the case to the trial court so she may have an
opportunity to do so. Owing to the significant change in
controlling authority, and seeing no basis to conclude at this
stage that a wrongful foreclosure claim against PNMAC
would be doomed, we agree she should have that opportunity.
As to Trustee Corps, however, a wrongful foreclosure
claim is doomed, as we shall explain. We therefore affirm the
judgment of dismissal solely as to that party.
A. Standard ofReview
We review de novo the trial court’s order sustaining the
demurrers and we determine whether the operative complaint
states a valid cause of action. {Brown v. Deutsche Bank
National Trust Company 204 Cal.App.4th 433.) “[W]e accept
the truth of material facts properly pleaded in the operative
complaint, but not contentions, deductions, or conclusions of
fact or law. We may also consider matters subject to
judicial notice. {Evans v. City of Berkeley (2006) 38 Cal.4th
1, 6.) To determine whether the trial court should, in
sustaining the demurrer, have granted the plaintiff leave to
amend, we consider whether on the pleaded and noticeable
facts there is a reasonable possibility of an amendment that
would cure the complaint’s legal defect or defects.

6*

(Schifando v. City of Los Angeles (2003) 31 Cal.4th 1074,
1081.)” (Yvanova, supra, 62 Cal.4th at p. 924 [footnote
omitted].)
B. The Operative Complaint Does Not Now State a
Valid Cause of Action
1. Claims other than wrongful foreclosure
We adhere to our prior opinion’s resolution of plaintiff’s
appeal as to the first, second, and fourth causes of action in
the operative complaint, for violation of the Commercial
Code, quiet title, and cancellation of instruments,
respectively. As the trial court concluded, the Commercial
Code has no application in the realm of nonjudicial
foreclosure. {Debrunner v. Deutsche Bank Nat. Trust Co
(2012) 204 Cal.App.4th 433, 441.) In addition, “[i]t is settled
in California that a mortgagor cannot quiet his title against
the mortgagee without paying the debt secured,” which
plaintiff has not done. (Shimpones v. Stickney (1934) 219 Cal.
637, 649; accord, Lueras v. BAC Home Loans Servicing, LP
(2013) 221 Cal.App.4th 49, 86 [citing additional cases].) And
as to the cause of action for cancellation of instruments,
plaintiff has alleged no facts which would support
cancellation of the Note or deed of trust because she does not
dispute the validity of those documents; she challenges only
the validity of the trust deed’s transfer by way of the
Assignment.
2. The wrongful foreclosure cause of action
The elements of a claim for wrongful foreclosure are
“(1) the trustee or mortgagee caused an illegal, fraudulent, or
willfully oppressive sale of real property pursuant to a

power of sale in a mortgage or deed of trust; (2) the party
attacking the sale (usually but not always the trustor or
mortgagor) was prejudiced or harmed; and (3) in cases where
the trustor or mortgagor challenges the sale, the trustor or
mortgagor tendered the amount of the secured indebtedness
or was excused from tendering.” (Lona v. Citibank, N.A.
(2011) 202 Cal.App.4th 89, 104.)
In our prior opinion, we relied on three Court of Appeal
decisions that held a plaintiff who does not dispute
obligations owed under a promissory note or deed of trust
cannot demonstrate prejudice from an allegedly defective
assignment because the assignment merely substitutes one
party for another without changing the underlying
obligations; the true victim of the defective assignment in
such circumstances, so the argument goes, is the lender not
the plaintiff. (Hernandez v. PNMAC Mortgage Opportunity
Fund Investors, LLC, et al. (Dec. 18, 2015, B258583
[nonpub. opinion, citing Siliga v. Mortgage Electronic
Registration Systems, Inc. (2013) 219 Cal.App.4th
75; Herrera v. Federal Nat. Mortg. Assn. (2012) 205
Cal.App.4th 1495; Fontenot v. Wells Fargo Bank, N.A. (2011)
198 Cal.App.4th 256].) There was another Court of Appeal
decision holding to the contrary, Glaski v. Bank of America
(2013) 218 Cal.App.4th 1079, but at the time it occupied, as
one court has described it, “a lonely minority position on one
side of a split in the California courts.” {Lundy v. Selene
Finance, LP (N.D. Cal. Mar. 17, 2016, No. 15CV05676JST)
2016 WL 1059423.)
The Yvanova decision changed that, siding with Glaski
and marking a sharp shift in the pre-existing legal landscape.
In Yvanova, our Supreme Court resolved what it described as
the narrow question on which it granted review: “whether the
borrower on a home loan secured by a deed of trust may base

an action for wrongful foreclosure on allegations a purported
assignment of the note and deed of trust to the foreclosing
party bore defects rendering the assignment void.” (Yvanova,
supra, 62 Cal.4th at p. 923.) The court held “an allegation
that the assignment was void, and not merely voidable at the
behest of the parties to the assignment, will support an action
for wrongful foreclosure.” {Id. at p. 924.) Although the court
rejected the financial institution defendants’ argument
that the plaintiff had no standing to bring a wrongful
foreclosure claim based on an allegedly defective assignment,
the court’s opinion did include language disclaiming any
intent to resolve questions concerning the substantive
elements of the wrongful foreclosure tort or the factual
showing needed to meet those elements. (Ibid.)
In her supplemental briefing, plaintiff essentially
concedes the complaint, including the wrongful foreclosure
cause of action, does not now state a valid claim. She
acknowledges portions of the complaint are “perhaps
inartfullyf ] drafted” and she recognizes “[a] favorable ruling
at this stage will still mean the borrower must file a
complaint that makes sufficient allegations.” We agree, for
her alternative usage of void or voidable, and the allegations
made specifically in connection with her wrongful
foreclosure claim, leaves her theory of liability unclear, and
unclear in a manner that makes all the difference under
Yvanova. But the conclusion the complaint is not
sufficient as it stands does not end our inquiry; rather,
plaintiff devotes nearly the entirety of her supplemental
briefing to making the case that she deserves an opportunity
to amend the complaint to state a wrongful foreclosure claim
with the benefit of our Supreme Court’s guidance in Yvanova.

C. Plaintiff Is Entitled to An Additional Opportunity
to Allege a Valid Cause of Action for Wrongful
Foreclosure against PNMAC
When addressing whether leave to amend a complaint
was erroneously denied, a plaintiff “must show in what
manner he can amend [the] complaint and how that
amendment will change the legal effect of [the]
pleading.” (Goodman v. Kennedy (1976) 18 Cal.3d 335, 349,
internal citations omitted.) We decide whether there is a
reasonable possibility the defect or defects in the complaint
can be cured by an amendment; if so, the court has abused its
discretion and we reverse. (City of Dinuba v. County of
Tulare (2007) 41 Cal.4th 859, 865.)
As we have said, the Yvanova decision represented a
significant shift from preexisting case law, and in light of
Yvanova, we hold there is a reasonable possibility
plaintiff can amend to state a valid cause of action for
wrongful foreclosure.9 Taken together, portions of the
existing operative complaint and plaintiff’s supplemental
briefing in this court are sufficient indication she intends to
allege PNMAC was not the true beneficiary because the
Assignment was absolutely void—not simply voidable.10
(Yvanova, supra, 62 Cal.4th at p. 935 [“If a purported
assignment necessary to the chain by which the foreclosing
entity claims that power [to complete a nonjudicial
foreclosure] is absolutely void, meaning of no legal force or
9 This shift is also why we do not fault plaintiff for articulating only now
how she would amend the complaint in an effort to state a valid wrongful
foreclosure cause of action.
10 While a void contract is one without legal effect that binds no one and
is a mere nullity, a voidable contract is one that the parties thereto may
declare void but is not void in itself. (Yvanova, supra, 62 Cal.4th at pp.
929-930.)

effect whatsoever [citations], the foreclosing entity has acted
without legal authority by pursuing a trustee’s sale, and such
an unauthorized sale constitutes a wrongful foreclosure”].)
PNMAC, however, counter that mere allegations an
Assignment is defective and thereby void are insufficient; to
plead wrongful foreclosure a plaintiff must identify facts
establishing how the Assignment is void. We agree that a
plaintiff does not state a valid cause of action solely by
including boilerplate language in a complaint asserting an
assignment is void. (Glaski v. Bank of America, supra, 218
Cal.App.4th at p. 1094.) But our reading of the operative
complaint along with the additional facts plaintiff now
represents she can plead establishes a reasonable possibility
plaintiff can go beyond mere allegations and present a
specific wrongful foreclosure theory on which she intends to
rely, namely, that the person who ostensibly executed the
Assignment, Graves, in fact had no authority to act on
MERS’s behalf; or if he did, he did not in fact execute the
Assignment because the notary, Castillo, who has since
apparently been convicted (not just indicted) for misuse of
her notary seal falsely verified his signature; and that just
months before the Assignment was ostensibly executed there
were competing claimants on the beneficial interest in the
Note.
PNMAC, however, has what appears at first blush to be a
forceful counterargument. PNMAC claims, relying on the
Garcia declaration that was among the bankruptcy documents
the trial court judicially noticed, that it was the holder of the
Note at the time foreclosure proceedings were instituted. If
PNMAC could properly and conclusively establish at this
stage of the proceedings that it did hold the Note at the

6?

relevant time, that would be dispositive and preclude a
wrongful foreclosure cause of action because a deed of trust
automatically transfers with the Note it secures—even
without a separate assignment. (Civ. Code, § 2936; Yvanova,
supra, 62 Cal.4th at p. 927 [“The deed of trust, moreover, is
inseparable from the note it secures, and follows it even
without a separate assignment”].)
On appeal from the trial court’s demurrer ruling,
however, we are not in a position to accept PNMAC’s
counterargument for two reasons. First, the operative
complaint alleges (and it appears plaintiff would persist in the
allegation) that PNMAC was not the holder of the Note. In
many situations courts may take judicial notice of the
existence and facial contents of publicly recorded documents
and certain documents filed in other judicial proceedings
notwithstanding contrary allegations leveled in a complaint.
{Fontenot v. Wells Fargo Bank, N.A., supra, 198 Cal.App.4th
at pp. 264-265 [court may take judicial notice of facts that
cannot reasonably be controverted].) The question of
who the holder of a note is, however, is disputable (at least in
this case), and we will not assume the truth of facts asserted
in the Garcia declaration to disregard the complaint’s
contrary allegations. {Yvanova, supra, 62 Cal.4th at p. 924, fn.
1 [taking judicial notice of a recorded deed of trust and other
documents but “not of disputed or disputable facts
stated therein”].) Further, even if it were proper to take
judicial notice of the truth of the facts to which Garcia
attested in her declaration, there is nothing in the declaration
or on the second allonge to the Note itself—which is undated

—that establishes when PNMAC came to be its holder.11
Without a basis to conclude PNMAC was the holder at the
time it instituted foreclosure proceedings, we are convinced
there remains a reasonable possibility plaintiff can state a
proper wrongful foreclosure claim.
In our prior opinion, we also held the operative
complaint failed for insufficient allegations concerning the
prejudice element of a wrongful foreclosure claim because
she did not dispute that her husband had ceased making
payments on the Note and there was no allegation, nor reason
to believe, that CitiMortgage (the holder of the Note prior to
the asserted fraudulent Assignment) would not have
proceeded with foreclosure. To support our conclusion on
that point, we relied on Siliga v. Mortgage Electronic
Registration Systems, supra, 219 Cal.App.4th 75. PNMAC
contends there is no reasonable probability plaintiff could
amend her complaint to state a wrongful foreclosure claim
for this same reason.
We believe our prior prejudice rationale no longer holds.
Siliga is one of the cases Yvanova has now expressly
disapproved to the extent it held borrowers lack standing to
challenge an assignment of the deed of trust as void.
{Yvanova, supra, 62 Cal.4th at p. 939, fn. 13.) Moreover,
more than once in its opinion, our Supreme Court casts doubt
on the rationale on which we relied to conclude there was an
insufficient allegation of prejudice. (Id. at p. 941 [“Without
discussing Glaski, the Siliga court also held the borrower
plaintiffs failed to show any prejudice from, and therefore

11 Not only is the second allonge to the Note undated, it is executed on
CitiMortgage’s behalf “[b]y and through its Attorney in Fact PNMAC
Capital Management LLC.” The parties have not pointed to a document
in the record before us memorializing an agreement by CitiMortgage to
have PNMAC Capital Management LLC act as its attorney in fact.

lacked standing to challenge, the assignment of their deed of
trust to the foreclosing entity. ... As already explained, this
prejudice analysis misses the mark in the wrongful
foreclosure context. When a property has been sold at a
trustee’s sale at the direction of an entity with no legal
authority to do so, the borrower has suffered a cognizable
injury”]; see also, e.g., id. at p. 938 [“The logic of defendants’
no-prejudice argument implies that anyone, even a stranger to
the debt, could declare a default and order a trustee’s sale—
and the borrower would be left with no recourse because,
after all, he or she owed the debt to someone, though not to
the foreclosing entity. This would be an ‘odd result’ indeed”]
(emphasis omitted).) To be sure, Yvanova does state its
holding is narrow, and it does disclaim any intent to address
the substantive elements of the wrongful foreclosure tort. But
we cannot reconcile our prior lack-of-prejudice holding—that
plaintiff failed to allege another entity would not have
foreclosed—with Yvanova’s statements indicating no such
allegation is necessary to state a wrongful foreclosure claim.
(See Sciarratta v. U.S. Bank National Association 247
Cal.App.4th 552 [202 Cal.Rptr.3d 219, 221-222] [“[W]e
conclude that a homeowner who has been foreclosed on by
one with no right to do so—by those facts alone—sustains
prejudice or harm sufficient to constitute a cause of action for
wrongful foreclosure”].) In addition, and in any event,
“[w]hatever merit [a] rule [requiring proof the true
beneficiary would not have foreclosed] would have” on the
ultimate question of liability (Yvanova, supra, 62 Cal.4th at
pp. 938-939), a plaintiff who states a cause of action
consistent with Yvanova is entitled to an opportunity to show
through discovery that the proper party to foreclose would
not have foreclosed, or at least would not have instituted

foreclosure proceedings as quickly as the actual foreclosing
party in fact did.
PNMAC additionally argues plaintiff cannot carry her
burden to show a reasonable possibility of amending to state
a valid wrongful foreclosure claim because she cannot plead
tender, i.e., that she paid or offered to pay the amount due
under the Note. Yvanova, while expressly reserving decision
on the question of whether tender is required to set aside a
foreclosure sale based on a claim of wrongful foreclosure, did
cite cases holding there are exceptions to the tender rule.
{Yvanova, supra, 62 Cal.4th at p. 929, fn. 4 [citing cases and
explaining “[tjender has been excused when, among other
circumstances, the plaintiff alleges the foreclosure deed is
facially void, as arguably is the case when the entity that
initiated the sale lacked authority to do so”]; see also, e.g.,
Pfeifer v. Countrywide Home Loans, Inc. (2012) 211
Cal.App.4th 1250, 1280-1281 [citing cases]; Barrionuevo v.
Chase Bank, N.A. (N.D. Cal. 2012) 885 F.Supp.2d 964,
969.) We believe there is a reasonable possibility plaintiff can
plead sufficient facts in a Third Amended Complaint to state
a cause of action that would come within one of the
recognized exceptions—particularly if, as plaintiff now
contends, the complaint “would be nothing more than an
action for money damages,” rather than an attempt to unwind
the completed foreclosure sale.
Next, PNMAC asserts plaintiff cannot state a valid
wrongful foreclosure claim because she did not sign the Note
and Yvanova is framed only in terms of what a “borrower”
may allege. This argument fails because plaintiff is named in
the trust deed, which she signed, as a “borrower” on the Note.
We are convinced Yvanova did not use the term borrower in
any more technical or restrictive sense than that.

'If

Finally, we emphasize we do not hold plaintiff
necessarily has a valid cause of action for wrongful
foreclosure against PNMAC. Rather, consistent with the well
established standard we apply at this stage of the
proceedings, we hold only that there is reasonable possibility
that she will be able to plead such a claim. We therefore
remand the matter to the trial court to give her that
opportunity, which if again contested via demurrer by
PNMAC, the trial court will decide on the record before it.
D. Even in Light of Yvanova, the Trial Court
Correctly Sustained Trustee
Corps’ Demurrer
Without Leave to Amend
“A deed of trust to real property acting as security for a
loan typically has three parties: the trustor (borrower), the
beneficiary (lender), and the trustee. ‘The trustee holds a
power of sale. If the debtor defaults on the loan, the
beneficiary may demand that the trustee conduct a
nonjudicial foreclosure sale.’ (Biancalana v. T.D. Service Co.
(2013) 56 Cal.4th 807, 813.)
[t] • ■ • HO The trustee of a
deed of trust is not a true trustee with fiduciary obligations,
but acts merely as an agent for the borrower-trustor and
lender-beneficiary. (Biancalana v. T.D. Service Co., supra, 56
Cal.4thatp. 819; Vournas v. Fidelity Nat. Tit. Ins. Co. (1999)
73 Cal.App.4th 668, 677.) While it is the trustee who
formally initiates the nonjudicial foreclosure, by recording
first a notice of default and then a notice of sale, the trustee
may take these steps only at the direction of the person or
entity that currently holds the note and the beneficial interest
under the deed of trust—the original beneficiary or its
assignee—or that entity’s agent. (Civ. Code, § 2924, subd.

(a)(1) [notice of default may be filed for record only by ‘[t]he
trustee, mortgagee, or beneficiary’]; Kachlon v. Markowitz
(2008) 168 Cal.App.4th 316, 334 [when borrower
defaults on the debt, ‘the beneficiary may declare a default
and make a demand on the trustee to commence
foreclosure’]; Santens v. Los Angeles Finance Co. (1949) 91
Cal.App.2d 197, 202 [only a person entitled to enforce the
note can foreclose on the deed of trust].)” (Yvanova, supra, 62
Cal.4th at pp. 926-927.)
We have held it is reasonably possible plaintiff can state
a valid wrongful foreclosure cause of action against PNMAC,
and we remand to give her that opportunity. She is not
entitled, however, to leave to amend as to Trustee Corps
because we are convinced there is no reasonable possibility
she could state a valid wrongful foreclosure cause of action
against that entity.
It is undisputed that Trustee Corps instituted foreclosure
proceedings by recording a notice of default and a notice of
sale. But given the circumscribed role of a trustee in
foreclosure proceedings, merely alleging that Trustee Corps
took these actions at PNMAC’s behest is not a sufficient
basis on which wrongful foreclosure liability can be
predicated. The apparent basis for the operative complaint’s
assertion of a wrongful foreclosure cause of action against
Trustee Corps were allegations that PNMAC and Trustee
Corps, labeled by plaintiff the “conspiring defendants,”
joined together in some unspecified manner to form a
“conspiracy” and perpetrate “actual fraud” in the ssignment
of the trust deed. (Operative Complaint
8, 25, 26, 40.)
These, however, are mere conclusory allegations insufficient
to allege conspiracy. (State of California ex rel. Metz v. CCC
Information Services, Inc. (2007) 149 Cal.App.4th 402, 419;
Nicholson v. McClatchy Newspapers (1986) 177 Cal.App.3d

73

509, 521; see also Kachlon v. Markowitz, supra, 168
Cal.App.4th at pp. 333, 343 [actions taken by a foreclosure
trustee privileged under Civil Code, §§ 47 & 2924, subd. (d)
unless malicious].) Plaintiff’s supplemental briefing offers
nothing as to how she could plead facts sufficient to state a
claim against Trustee Corps specifically, and no viable path
for a wrongful foreclosure cause of action against that entity
is otherwise apparent. We therefore uphold the trial court’s
decision to sustain the demurrer without leave to amend as to
Trustee Corps.
DISPOSITION
The judgment of dismissal is affirmed as to defendant
Trustee Corps. The judgment of dismissal is reversed as to
defendant PNMAC and the matter remanded for further
proceedings consistent with this opinion. Defendant Trustee
Corps shall recover its costs on appeal. Plaintiff and
defendant PNMAC shall bear their own costs on appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
BAKER, J.
We concur:
KRIEGLER, Acting P.J.
RAPHAEL, J.i2

12 Judge of the Los Angeles Superior Court, assigned by the Chief Justice
pursuant to article VI, section 6 of the California Constitution.

7+

App-5

Penny Mac letter dated March 17, 2011
addressed to borrower

7/

APP-5

Loan Administration
P.O.Box 514387
Los Angeles, CA 90051 4387
(S66) 54S-S07O
fax (866) 577-7205
vvww.pennymacus3.com

«
SrnnyM#*: loan

UC

ALFREDO HERNANDO
27612 TARRASA DR
RCH PALOS VRD CA 90275-1011

Notice Date: March 17,2011
Account Number: 2004975196
Property Address:
27612 TARRASA DR
RANCHO PALOS VEROB CA 00275

NOTICEOF ASSIGNMENT, SALE, OR TRANSFER OF OWNERSHIP OF MORTGAGE LOAN
lit this Notice, the terms ®we/* "us"’ or'*iw«r mean the new Creditor identified below, This Notice is provided by us or
on our behalf,
federal Jaw requires that bottom* receive a written netft* whatever ownership of a loan secured by their principal
dwelling Is assigned, sold ©r transferred fcaiedfvely ’‘transferred*’) to a new creditor. You are receiving this Notice
because your prior creditor transferred your loan (described above) to PNMAC Mortgage Opportunity Fund
investors, LLC, You may contact ywir prior creditor, or the servicer of your ban, If you want to confirm these
transfers.
it is important that fM understand the difference between the. creditor and the servicer of your loan. The creditor
owns your loan. The servicer collects your mortgage payments, sends you billing statements, and provides the dayto-day administration of your loan as a contractoron the credit©?’* behalf.
Note; The servicing of your loan is expected to chans on March :2S, 2011 and you wfl! receive a separate notice
with additional Information, Until you receive this notice, pleas® oostinus to send your loan payments to
CrtiMortgage, Inc, - do not send your loan payments to any other servicer until directed to do so In such notice, if
you have any questions regarding your loan or.the servicing ofyour loan you should first contact the servicer at. the
servicer’s mailing address or telephone number set forth directly below. The .servicer is generally authorized to
handle most inquiries and requests. In the. limited o'rcymstances where the servicer does not have, independent
'authority to act, the servicer will gather relevant, information from you and consult with parties, including us, .about
your request and communicate a decision to you.
..

Betvicerls Name:.....
—......-----.____ QtiMeflg^:e,.lnc...
Servicer’s Toflfree Telephone Number:
1800) 283-7.9.18
2. Date Your Loan was Transferred to PNMAC Mortgage Opportunity Fund Investors. UC:
February 25,2010
3, New Creditors Name:
New Creditor's Mailing Address;
(Not for payments)
New Creditor’s Toll Free Telephone Number;

FNMAC Mortgage Opportunity Fund Investors, tie
27001 AgouraRd
Cetabasas, CA 91301
(866)545-9070

4, The transfer of your loan to us is recorded on our books and records but has not been publicly recorded.
Ownership of your loan may also be recorded on the registry of Mortgage Electronic Registrations Systems,
Inc., at 1818 Library Street, Suite 300 f?estcm,VA 20190,...............................

1000032423

4m~mm:2 03j98m4)

App-6

Penny Mac letter dated April 5, 2011
addressed to borrower

77

€

APP-6

(jp^nnyMac*
TfewpiM Urn ^l*r«s**5 at

tm Aspstei. &k fOilt?43©
|gii||4S*Wt

jteM$tt*7205

Apr# S,3011
AUFBE0O HERNANDEZ

muTmms&m

RCH PALOS V«0, CA 90275*1911

(rnmmmi w mmm m m&ismmttmst mimmm m wnmamrn mm&m, wm
it:

Coin Wawberi lOSAtfSlSS
27622'TARRASAORfVf ’
RANCHO PALOS VERDES, CA 90275

Osar AtJWO HfiMAMS:
You recently iwcfNtd a tetter dated March 17# 2011 notifying you that tilt ewrttrsMp of a loan
secured by your principal dwelling Is assigned, sold or tmnsftrrtd to a mw creditor,
life letter Indicated sfuattht date your tea« transferred mm Peferwarf 2$, lit#. Hie correct;
date is ftferuaff is, 2t?ii,
If you have siilttenii Questions please ail am Customtf Strwoe Depirtrrtesft si C6&6J S4S*#QiO,
Our office hoars §m
AM to idMAM, Alomlsf ftrou^ fridsy and ?tO0 AM to 11:00 AM,
Saturday PSH
Iloeerely,
MMasellfhMiilif
Director, Lean Aiifsinfcireipft

IM$ A m

t© esfiaet e debt wxt mf $nf#mstim otetesd wlf fee used/sr %mpwp@m

IS

App-7

PennyMac letter dated August 28, 2012
addressed to borrower

ennyMac®

P.O. Sox .5143a?
Los -Angelas,' GA 89051-4387.

/*

APP-7

Notification of Assignment,
Sale or Transfer of Tour
Mortgage Loan

August 28, .2012ALFREDO HERNANDEZ
27612 TARrASA DR
RCH PALOS. VRD CA 90275

Re: Loan Number^‘KK&03242&
— 27612: TARRASA OR RANCHO PALOS- VERDES. GA90275.Dear ALFREDO HERNANDEZ:
The purpose of this notice fete Worm you that your mortgage loan referenced above was sold to
PN MAC Mortgage Opportunity Fund investors, LLC on August 02. 2012. Your loan servicer continues
to.be PennyMac Loan Services LLC f PennyMac); PNMAC Mortgage Oppsrtunity Fund Investors, LLC
does not .service your loan . Please note, this letter dots not require any action to be taken on your part
■but is simply a courtesy notification of the assignment, sale or transfer of your mortgage loan. Below Is
your servicer’s contact information should you have any questions or concerns about your loan.
The transfer of mortgage loans is a standard part of the mortgage business for many of the nation's
mortgage.lenders. The transfer of your mortgage loan to PNMAC Mortgage Opportunity Fund
Investors, LLC does, not affect arty terms or conditions of the -Mortgage/Deed of Trust or Note. The
transfer of ownership of your mortgage loan has not been publicly recorded..
It is .important thatyou send your mdnthiy loan payments directly to your servicer, Please do not send
payments to PNMAC Mortgage: Opportunity Fund Investors, LLC as they may be relumed to you,- which
could result In late changes and your account becoming past due. Ail correspondence, and Inquiries
concerning your mortgage loan also should be addressed to your servicer. We rely on the mortgage
servicer to manage your mortgage-on our behalf and wort directly with you. Your servicer has authority
To act- onouf behalf with regard: to the pdroinlstratlon df your morigageioanand respond to any
questions about your ten.
Servicer: PennyMac Loan Services. 6101 Condor Drive: Moorpark CA93021
Address for sending payments: P.O. Box 30597 Los Angeles- CA 90030
Toll-free telephone number for inquiries: 8666013518
Website: www.PennyMacUSA.com
If you have questions regarding this notice, you may contact PNMAC'Mortgage Opportunity Fund
Investors, LLC -at 6101 Condor Drive Moorpark CA 93921,8182247442,

16

